DOCKET NO. ____________________

In the Supreme Court of the
United States
__________♦__________
GLADYS MENDOZA,
PERSONAL REPRESENTATIVE
OF ELIAS MENDOZA, DECEASED
Petitioner

v.
INSPIRA HEALTH NETWORK, INC.,
INSPIRA MEDICAL CENTERS, INC,
ANDREW ZINN, M.D.
and THE HEART HOUSE
Appellees
__________♦__________
On Petition for Writ of Certiorari
to the United States
Court of Appeals for the Third Circuit
__________♦__________
PE
ETITION FOR WRIT OF CERTIORARI
JAMES R. RADMORE, ESQUIRE
THE RADMORE FIRM, LLC
Two Penn Center, Suite 520
1500 JFK Boulevard
Philadelphia, PA 19102
215 568 9900
jrr@radmore.net

Attorney for Petitioner

QUESTION PRESENTED FOR REVIEW
Does not the Decision in this case require a
reaffirmation and clarification of Anderson v. Liberty
Lobby, Inc, 477 U.S. 242, 255 and its progeny where,
in considering a motion for summary judgment and
depriving plaintiff of her right to trial by jury, that a
non-moving party's evidence is to be believed and all
justifiable inferences are to be drawn in her favor
and the decision of the lower court totally
disregarded plaintiff s evidence including the
Affidavits of expert witnesses and two expert reports,
without explanation as to why it was ignored or
found not to be credible and the circuits, in
interpreting Anderson have held, with differing
standards, such an explanation is required to
determine why plaintiff s evidence was not believed
and all inferences were not drawn in her favor?
Does this not violate the preservation of the right of
trial by jury as mandated by the Seventh
Amendment of the Constitution and violate this
Court s requirements as set forth in Anderson?
(Suggested answer in the affirmative)

i

THE PARTIES TO THE PROCEEDING
GLADYS MENDOZA, PERSONAL REPRESENTATIVE
OF ELIAS MENDOZA, DECEASED
9401 Roberts Drive, Apartment 23A
Sandy Springs, GA 30350
Petitioner
INSPIRA MEDICAL CENTER VINELAND
1505 W. Sherman Avenue
Vineland, NJ 08360
SOUTH JERSEY HEALTH CARE
1430 W. Sherman Avenue
Vineland, NJ 08360
INSPIRA HEALTH NETWORK, INC.
165 Bridgeton Pike
Mullica Hill, NJ 08062
ANDREW ZINN, M.D.
Cumberland Professional Campus
1051 W. Sherman Avenue, Suite 3-A
Vineland, NJ 08360
THE HEART HOUSE
Cumberland Professional Campus
1051 W. Sherman Avenue, Suite 3-A
Vineland, NJ 08360
Respondents

ii

CORPORATE DISCLOSURE STATEMENT
Plaintiffs are not a corporation.

iii

TABLE OF CONTENTS
Page
Questions Presented for Review. . . . . . . . . . . .

i

The Parties to the Proceeding. . . . . . . . . . . . . . .

ii

Corporate Disclosure Statement. . . . . . . . . . . .

iii

Table of Contents. . . . . . . . . . . . . . . . . . . . . . . .

iv

Table of Authorities. . . . . . . . . . . . . . . . . . . . . .

vii

Citations to the Orders and Opinions Below. .

1

Statement of Jurisdiction in this Court. . . . . .

2

Constitutional Provisions and Statutes
Involved. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

3

Statement of the Case. . . . . . . . . . . . . . . . . . . .

5

Basis for Federal Jurisdiction In the
Court of First Instance. . . . . . . . . . . . . . . . . . . .

5

The Facts Material to Consideration
of the Questions Involved. . . . . . . . . . . . . . . . . .

5

iv

THE REASONS RELIED ON FOR ALLOWANCE
OF THE WRIT:
The Decision of the District Court as affirmed by the
Court of Appeals requires a reaffirmation and
clarification of Anderson v. Liberty Lobby, Inc, 477
U.S. 242, 255 (1986) and its progeny where, in
considering a motion for summary judgment and
thereby depriving plaintiff of her right to trial by
jury, that a non-moving party's evidence is to be
believed and all justifiable inferences are to be drawn
in her favor and the decision of the lower court as set
forth on its Opinion, totally disregarded, without
explanation, plaintiff s evidence including the
Affidavits of expert witnesses and two expert reports,
as to why it was ignored or found not to be credible.
Circuits that have addressed the issue, in
interpreting Anderson have held, with differing
standards, such an explanation is required to
determine why plaintiff s evidence was not believed
and all inferences were not drawn in her favor. This
violated the preservation of the right of trial by jury
as mandated by the Seventh Amendment of the
Constitution and violated this Court s requirements
This Court should
as set forth in Anderson.
mandate that such an explanation as to why the
non-moving parties evidence does not create a
genuine issue of material fact should be required. . 14
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

v

APPENDIX
The Order and Memorandum Opinion of the United
States District Court District of New Jersey, Noel L.
Hillman, USDJ, entered October 17, 2019, granting
defendants Motions for Summary Judgment and
denying plaintiff s Motion for Partial Summary
Judgment . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . .1a
The Judgment and Memorandum Opinion of the
United States Court of Appeal for the Third Circuit,
Ambro, Hardiman and Restrepo, Circuit Judges
dated June 2, 2020 affirming the decision of the
District Court. . .. .. . . .. . . . . . . . . . . . . . . . . . . . . . 31a
The Order denying plaintiff=s Motion for
Reconsideration dated July 1, 2020. The Motion for
Reconsideration was submitted to the judges who
participated in the decision of this Court. Judge
Hardiman, authoring Judge. . . . . . . . . .. . . . . . . . . 36a
Judgment in lieu of Formal Mandate dated July 9,
2020. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38a

vi

TABLE OF AUTHORITIES
Pa ge
Constitutional Provisions,
Statutes and Rules:
Federal Rule of Civil Procedure 56 . . . . . . . . . . .

25

N.J. Stat. § 2A:53A-26 . . . . . . . . . . . . . . . . . . . . .

6

Supreme Court of the United States, Rule 10 . .

14

United States Constitution,
Amendment Seven . . . . . . . . . . . . . . . . . . . . . 14, 15, 28
Cases
Anderson v. Liberty Lobby, Inc,
477 U.S. 242, 255 (1986). . . . . . . . . . 14, 15, 16, 18, 27
Celotex Corp. v. Catrett,
477 U.S. 317, 322-23 (1986) . . . . . . . . . . . . . . . 15, 17
Certain Underwriters at Lloyd's v.
Axon Pressure Prods. Inc.,
951 F, 3d 248 (5th Cir. 2020) . . . . . . . . . . . . . . . .

23

Forbes v. Township of Lower Merion,
313 F.3d 144 (3d Cir. 2002) . . . . . . . . . . . . . . . . . .

21

Francis v. Goodman,
81 F.3d 5, 8 (1st Cir. 1996) . . . . . . . . . . . . . . . . . . .

22

vii

Ga. State Conference of the Naacp v.
Fayette Cnty. Bd. of Comm'rs,
775 F.3d 1336, 1346 (11th Cir. 2015) . . . . . . . .

24

Grossman v. Berman,
241 F.3d 65, 68 (1st Cir. 2001) . . . . . . . . . . . . . .

22

Jones v. City of N.Y.,
603 F. App'x 13, 4 (2d Cir. 2015) . . . . . . . . . . . . .

22

Myers v. Gulf Oil Corp.,
731 F.2d 281, 283-84 (5th Cir. 1984) . . . . . . . . .

22

Pignataro v. Port Auth. of N.Y. & N.J.,
593 F.3d 265, 268 (3d Cir. 2010) . . . . . . . . . . . . .

18

Schwarz v.Folloder
767 F.2d 125, 133 (5th Cir. 1985) . . . . . . . . . . . .

24

United Bank, Corp. v. Buckingham,
No. 18-1411, at *18 (4th Cir. Feb. 21, 2019) . . .

23

Vadino v. A. Valey Engineers,
903 F.2d 253 (3d Cir. 1990) . . . . . . . . . . . . . . . . 21, 22

viii

Treatises
Fitzpatrick, Brian T., Originalism and
Summary Judgment,
71 Ohio State Law Journal. 919 (2010) . . . . . . . .

26

Steagal, Richard L., TheRecent Explosion in
Summary Judgments Entered by the Federal
Courts has Eliminated the Jury from the
Judicial Power 33 Southern Illinois University
Law Journal, p. 469 . . . . . . . . . . . . . . . . . . . . . . . .

17

Thomas, Suja A. Reforming the Summary
Judgment Problem: The Consensus
Requirement,
86 Fordham L. Rev. 2242-43 (2018) . . . . . . . . . 16, 25
United States Court, Caseload
Statistics Data Tables, 2019, Table C-4 . . . . .

ix

16

CITATIONS TO THE OFFICIAL AND
UNOFFICIAL REPORTS OF THE OPINIONS
AND ORDERS ENTERED IN THE CASE
The Order and Opinion of the United States
District Court for New Jersey entered October 17,
2019 and is not reported and can be found at Civil
No. 16-1337 (NLH/KMW) (D.N.J. Oct. 17, 2019).
The Order and Opinion is set forth in the Appendix
at page 1a.
The Judgment and Memorandum Opinion of
the United States Court of Appeal for the Third
Circuit, Ambro, Hardiman and Restrepo, Circuit
Judges dated June 2, 2020 affirming the Order of the
District Court. The Judgment and Memorandum
Opinion are set forth in the Appendix at page 31a.
The Order denying plaintiff=s Motion for
Rehearing en banc dated July 1, 2020. The Motion
for Reconsideration was submitted to the judges who
participated in the decision of this Court. Judge
Hardiman, authoring Judge.
Said Order is
unreported. The Order is set forth in the Appendix
at page 36a.
The true copy of Judgment in lieu of Formal
Mandate dated July 9, 2020. The Mandate can be
found on page 38a.

1

STATEMENT OF THE BASIS FOR
THE JURISDICTION IN THIS COURT
The Judgment sought to be reviewed was
entered by the Court of Appeals for the Third Circuit
on June 2, 2020 The Motion for Reconsideration
was denied on July 1, 2020. The mandate was issued
on July 9, 2020.
The statutory provision believed to confer
jurisdiction on this Court to review on a writ of
certiorari the judgment of the Court of Appeals is 28
U.S.C. Section 1254(1).

2

CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED
Federal Rule of Civil Procedure 56 (a) provides:
(a) MOTION FOR SUMMARY JUDGMENT OR PARTIAL
SUMMARY JUDGMENT. A party may move for
summary judgment, identifying each claim or
defense — or the part of each claim or defense — on
which summary judgment is sought. The court shall
grant summary judgment if the movant shows that
there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law. The court should state on the record the
reasons for granting or denying the motion.
Constitution of the United States, Amendment VII
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the right of
trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwisere-examined in any Court of
the United States, then according to the rules of
common law.

3

STATEMENT OF THE CASE
The Basis for Federal Jurisdiction
in the Court of First Instance
Plaintiff initiated this case in the United
States District Court of the District of New Jersey on
March 9, 2016 at 1:16-cv-0133. Jurisdiction is
conferred under 28 U.S.C. Section 1331 and Section
1343(3).
The Facts Material to Consideration
of the Questions Involved
Petitioner,
Gladys
Mendoza,
Personal
Representative of Elias Mendoza, brought this action
against defendants. The Complaint set forth that
on March 10, 2014, decedent presented himself to the
Emergency Room at Inspira Medical Center
Vineland for shortness of breath and was
subsequently admitted into the Intensive Care Unit.
(Appendix p. 104a). The Complaint further alleged
decedent was negligently treated resulting in brain
damage, inability to ambulate, as well as damage to
his heart so as to cause plaintiff to suffer severe and
debilitating pain and to further suffer complications,
injuries and conditions which caused him a great
deal of physical and emotional pain and which
ultimately resulted in his death on February 23,
2015.
On March 11, 2014, decedent went to the
Emergency Room at IMC Vineland complaining of
4

shortness of breath. Shortly thereafter, he was
admitted to the Intensive Care Unit. At the time of
his admission, a cardiology consultation was
performed by defendant, Dr. Zinn. Decedent passed
away less than a year later from acute respiratory
failure, stemming from a cardiac arrest and coronary
artery disease.
As applied to Respondent, Inspira Health
Network, Petitioner alleged and Respondent
admitted necessary dialysis was not administered as
a result of inadequate staffing. While Petitioner
was in the intensive care unit at Inspira, decedent
was unable to receive necessary dialysis as a result of
staffing issues.
Specifically, at page 3 of the
Summary in decedent s chart the following
admission was included:
The patient unfortunately had some
difficulty receiving dialysis in our
intensive care unit due to staffing
limitations,
which
continued
to
exacerbate his fluid overload state."
(Appendix, p. 170a).
Petitioner served the report of T. Anthony
Cumbo, MD, an expert who is the Vice President of
Medical Affairs for a Joint Commission accredited
full-service
hospital
and
undisputed
and
indisputably qualified to present evidence on
hospital administration.
5

In his report, Dr. Cumbo opined decedent s
physicians clearly felt dialysis was warranted and
necessary to treat decedent and Inspira did not
provide the infrastructure necessary for dialysis as
per its admitted physicians specifications.
A
hospital system that regularly provides hemodialysis
should be able to staff the unit regularly and/or have
a plan for exigencies should this not be available.
Dr. Cumbo opined to a reasonable degree of
medical/administrative probability, the failure to
provide the necessary infrastructure for dialysis as
set forth above was a substantial factor in the
adverse outcome of decedent.
Inspira Health Network, Inc., as opposed to
Inspira Medical Center Vineland, is a holding
company. Inspira Health Network, Inc. is not itself
a medical facility and does not meet the definition of
health care facility under the Act. Therefore, an
Affidavit of Merit under New Jersey law is
unnecessary although expert testimony has been
found to be necessary. N.J. Stat. § 2A:53A-26.
Petitioner further argued an Affidavit of Merit was
unnecessary against Inspira Medical Center as it is
covered by the common knowledge exception to the
Rule.
Further, the Certification of Matthew Doonan,
Esq., General Counsel for Inspira Medical Center
stated it was not a medical provider. (Appendix, p.
323a).
On July

25,

2018,
6

Petitioner took the

deposition of the corporate designee of IHN, Stephen
Linn, M.D. (Appendix, p. 252a). Dr. Linn testified
as to the involvement of IHN and that its role was
administrative and did not testify IHN provided any
medical care. Judge Williams had severely limited
the scope of this deposition to only questions dealing
with Respondents, Dr. Zinn and The Heart House.
Nonetheless the District Court found that what
Petitioner did not do was obtain proof that IHN had
any responsibilities relating to the staffing of the
nephrology group at IMC ignoring Petitioner was
prohibited from doing so. In fact, Dr. Linn testified
he was responsible for assuring continuous coverage
and that there is emergency coverage when required.
In response to this evidence, Respondent
presented no expert testimony whatsoever. The
only evidence introduced was the Certification of
Matthew Doonan, Esq., General Counsel for Inspira
Medical Center. (Appendix, p. 323a). Mr. Doonan
is not the general counsel for IHN and based on the
Certification, has no position with IHN.
Mr.
Doonan asserted Inspira Medical Center, Inc. was
the corporate entity that owned and operated the
medical center. He further asserted IHN is a
separate non-profit corporation from IMC, and is
the parent of IMC, but neither
owns
nor
operates the medical center. Nothing in this
Certification responded to the report of Dr. Cumbo or
the testimony of Dr. Linn nor did it address staffing
issues.
Petitioner presented substantial evidence to
7

show defendant, Dr. Zinn, deviated from the
standard of care. In his report of July 23, 2018 and
Rule 56 Affidavit, Petitioner s expert, Dr. Bruce
Charash, a board certified cardiologist, opined the
deviation from the standard of care in failing to
adequately dialyze decedent was directly responsible
for his suffering an otherwise preventable
respiratory and cardiac arrest on March 15, 2014 and
for his suffering permanent anoxic brain injury as a
result of that same preventable cardiac arrest.
(Appendix, p. 274a).
As the District Court instructed both parties
to supplement their prior Motions, Petitioner in her
Answer to the Motion for Summary Judgment of Dr.
Zinn, attached an Affidavit from Dr. Charash.
(Appendix, p. 451a).
In the Affidavit, which
addressed the issues raised by the Court in its earlier
Opinion, Dr. Charash specifically addressed the
treatment rendered by Dr. Zinn and his deviation
from the standard of care.
Dr. Charash reviewed the records of Dr. Zinn
in detail and opined as to deviation from the
standard of care and causation as follows:
14.
Mr. Mendoza was not intubated
early during his admission to Inspira
Health Network.
Had he been
intubated, he would have been able to
tolerate full courses of dialysis and the
initial efforts to dialyze him would have
been more complete and more successful
8

and prevent aggravation of his cardiac
condition.
15.
The failure to intubate Mr.
Mendoza made him vulnerable to severe
shortness of breath limiting the ability
for him to tolerate the initial dialysis
efforts. This significantly contributed to
the conditions that resulted in his
cardiac arrest and led to the
development of hypoxia.
16.
The standard of care of Dr. Zinn
as his cardiologist who was responsible
for the cardiac care required that Elias
Mendoza be intubated, certainly as early
as March 13, 2014, in order to protect
him from a major hypoxic episode and
respiratory arrest precipitated by
cardiac arrest, as well as to provide him
the safety to permit complete dialysis
treatments. Because the deviation in the
standard of care in the failure to have
intubated Mr. Mendoza, he suffered a
respiratory arrest in the early morning
hours of March 15, 2014 from failure to
properly treat Mr. Mendoza s cardiac
failure. Had Mr. Mendoza been
intubated, this would not have occurred.
17.
Review of the records revealed
that Dr. Zinn continued his involvement
in this case as he reviewed the abnormal
9

EKG of March 13, 2014.
18.
As the charge cardiologist, Dr.
Zinn was fully aware that Mr. Mendoza
had not received necessary treatment
and it was a deviation from the standard
of care to fail to assure that the essential
intubation was performed.
19.
Dr. Zinn was in charge of Mr.
Mendoza s day-to-day cardiac treatment
as the consult was to determine what
steps needed to be taken and assure
cardiac and any heart-related treatment
was rendered.
20.
Mr. Mendoza had critical cardiac
compromise due to his volume overload
from his incomplete dialysis. Mr.
Mendoza absolutely required complete
dialysis, from a cardiac perspective.
21.
As noted specifically in his
consultation, Dr. Zinn was specifically
advised that Mr. Mendoza was
admitted to
the
hospital
with
pulmonary edema/volume overload. This
is in the context of end-stage renal
disease, and the patient missed a
dialysis session. This further required
Dr. Zinn s intervention in order to
protect his cardiac system.
10

22.
The standard of care required Dr.
Zinn to assure that Mr. Mendoza had his
dialysis treatment immediately in order
to avoid the cardiac complications which
were suffered by Mr. Mendoza. It was
his responsibility as the cardiologist to
assure the dialysis was promptly
scheduled in order to prevent cardiac
arrest and hypoxia.
23.
The records show Dr. Zinn
continued his day-to-day clinical cardiac
care of Mr. Mendoza.
Respondents, Dr. Zinn and The Heart House, had
been given the opportunity to take an additional
deposition of Dr. Charash as set forth in the Opinion
of October 17, 2019 but chose to present no
additional evidence. It was Respondent who failed
to present contrary evidence.
The District Court granted the Motions for
Summary Judgment of Respondents, The Heart
House, Dr. Zinn and Inspira Health Network, Inc.
The Court reviewed all evidence introduced by
Respondents.
However, the Affidavit of Dr.
Charash, was submitted to address the issues raised
by the Court in its prior Opinion. The Opinion did
not even mention the evidence submitted by
Petitioner.
This evidence was ignored without
explanation by the District Court.

11

With no comment, the Court inexplicably
granted summary judgment in favor of The Heart
House and Dr. Zinn. The Report of Dr. Cumbo,
discussed above, which addressed the staffing issues
of Inspira Health Network was also ignored without
explanation. Thus, two key pieces of evidence,
which Petitioner asserted created a genuine issue of
material fact, were ignored without the required
explanation as to why this evidence did not create a
genuine issue of material fact.
Petitioner appealed to the Court of Appeals for
the Third Circuit. The Court in a brief Opinion
which did not review the facts or evidence held that:
Our careful review of the record and the
various opinions leads us to conclude
that we could scarcely improve on the
work of the learned trial judge. As a
procedural matter, the District Court
addressed the issues methodically and
gave Plaintiff opportunities to amend
her complaint and hone her arguments.
In so finding, the Court of Appeals ignored the
significant deviation from their own supervisory
powers as will be discussed herein.
These facts and applicable controlling
precedent make it clear that it was incumbent on the
Court to explain why plaintiff s evidence was rejected
when Inspira Health Network did not even present
12

any evidence. As will be shown, this Court should
address this issue and clarify what is required in
deciding a Motion for Summary Judgment.

13

THE REASONS RELIED ON FOR THE
ALLOWANCE OF THE WRIT
The Decision of the District Court as affirmed by the
Court of Appeals requires a reaffirmation and
clarification of Anderson v. Liberty Lobby, Inc, 477
U.S. 242, 255 (1986) and its progeny where, in
considering a motion for summary judgment and
thereby depriving Petitioner of her right to trial by
jury, that a non-moving party's evidence is to be
believed and all justifiable inferences are to be drawn
in her favor and the decision of the lower court as set
forth on its Opinion, totally disregarded, without
explanation, Petitioner s evidence including the
Affidavits of expert witnesses and two expert reports,
as to why it was ignored or found not to be credible.
Circuits that have addressed the issue, in
interpreting Anderson have held, with differing
standards, such an explanation is required to
determine why plaintiff s evidence was not believed
and all inferences were not drawn in her favor. This
violated the preservation of the right of trial by jury
as mandated by the Seventh Amendment of the
Constitution and violated this Court s requirements
as set forth in Anderson.
This Court should
mandate that such an explanation as to why the
non-moving parties evidence does not create a
genuine issue of material fact should be required.
This Court will grant certiorari when a panel
has decided an important question of federal law
that has not been, but should be, settled by this
Court." Supreme Court Rule 10(c). While this
14

Court has had previous opportunity to rule on the
issue of summary judgment and its impact on one s
constitutionally protected right to trial by jury, it has
never used its supervisory powers to instruct the
Courts as to the specific requirements for the
rationale of its decisions which, by its very nature,
deprive
the
litigant
of
her
fundamental
Constitutionally granted right versus congressional
enacted diminution of the Seventh Amendment.
This case precisely presents this issue.
The burden in a summary judgment motion is
well established. Summary judgment is appropriate
when the moving party demonstrates that there is no
genuine issue of material fact and the evidence
establishes the moving party s entitlement to
judgment as a matter of law. Celotex Corp. v.
Catrett, 477 U.S. 317, 322-23 (1986).. In considering
a motion for summary judgment, a district court may
not make credibility determinations or engage in any
weighing of the evidence; instead, the non-moving
party's evidence is to be believed and all justifiable
inferences are to be drawn in his favor. Anderson v.
Liberty Lobby, Inc, 477 U.S. 242, 255 (1986).
In deciding whether to grant summary
judgment, judges decide whether a genuine dispute
of material fact exists and, if there is no such dispute,
they decide whether the moving party is entitled to
judgment as a matter of law. The Supreme Court has
stated that a judge can decide whether summary
judgment should be granted by determining whether
a reasonable jury could decide for the nonmoving
15

party. The Supreme Court has never undertaken to
explain how a judge can make this determination.
Suja A. Thomas, Reforming the Summary Judgment
Problem: The Consensus Requirement, 86 Fordham
L. Rev. 2242-43 (2018).
Justice Brennan in his dissent in Anderson,
477 U.S. at 257-58, explained the basis for his
dissent stating:
The Court today holds that "whether a
given
factual
dispute
requires
submission to a jury must be guided by
the substantive evidentiary standards
that apply to the case," ante, at 255. In
my view, the Court's analysis is deeply
flawed, and rests on a shaky foundation
of
unconnected
and
unsupported
observations,
assertions,
and
conclusions. Moreover, I am unable to
divine from the Court's opinion how
these evidentiary standards are to be
considered, or what a trial judge is
actually supposed to do in ruling on a
motion for summary judgment.
Since that time, this question has not been
answered.
The United States Court, Caseload Statistics
Data Tables, 2019, Table C-4, illustrates the
seriousness of this issue. These statistics reveal
that of the 251,757 cases terminated by Court action,
16

215,510 of these cases were terminated before trial.
In fact, only 0.7% of the cases actually reached trial.
While the statistics do not include the number
of cases terminated by summary judgment, research
from other sources has demonstrated the rise in
cases terminated by summary judgment. The
Federal Rules of Civil Procedure were adopted in
1938. That year 19.9% of the federal civil cases
were tried. The rate was 12.1% in 1952 and 11.5%
in 1962. By 2005, 1.7% of federal civil cases filed
were tried. The decline in trials coincides with a
significant increase in summary judgment. Today
summary judgment is granted on issues of
reasonableness, state of mind, and credibility,
results that were inconceivable 23 years ago.
Richard L. Steagal, The Recent Explosion in
Summary Judgments Entered by the Federal Courts
has Eliminated the Jury from the Judicial Power, 33
Southern Illinois University Law Journal, p. 469.
It is unquestioned that it is not the role of the
court in reviewing a summary judgment motion to
determine the credibility of the evidence. The
burden in a summary judgment motion is well
established. Summary judgment is appropriate
when the moving party demonstrates that there is no
genuine issue of material fact and the evidence
establishes the moving party s entitlement to
judgment as a matter of law. Celotex Corp. v.
Catrett, 477 U.S. 317, 322-23 (1986). In considering
a motion for summary judgment, a district court may
not make credibility determinations or engage in any
17

weighing of the evidence; instead, the non-moving

party's evidence is to be believed and all justifiable
inferences are to be drawn in his favor. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (1986).
(Emphasis added).

A fact is "material" if proof of its existence or
nonexistence might affect the outcome of the
litigation, and a dispute is "genuine" if "the evidence
is such that a reasonable jury could return a verdict
for the nonmoving party. "A
Anderson, 477 U.S. at 248.
The Court will view the facts in the light most
favorable to the nonmoving party. "After making all
reasonable inferences in the nonmoving party's
favor, there is a genuine issue of material fact if a
reasonable jury could find for the nonmoving
party." Pignataro v. Port Auth. of N.Y. & N.J., 593
F.3d 265, 268 (3d Cir. 2010). While the moving party
bears the initial burden of showing the absence of a
genuine issue of material fact, meeting this
obligation shifts the burden to the nonmoving party
who must "set forth specific facts showing that there
is a genuine issue for trial." Anderson, 477 U.S. at
250.
Here Respondent, Inspira Health Network,
presented no relevant evidence and the evidence of
plaintiff, the non-moving party, was not addressed.
The only passing reference in the Opinion of the
District Court appear at pp.22 and 26. At page 22 of
the Opinion, the District Court stated:

18

Simply put, the record is entirely devoid
of evidence suggesting IHN had any
involvement in staffing the nephrology
group at IMC.
As such, Plaintiff s
inadequate staffing claim will be
dismissed. The Court notes for clarity
that, in disposing of this claim, the Court
has resolved all claims against the
Inspira Defendants.
At pp. 26-27, the District Court stated:
Plaintiff has not identified any
competing
evidence. Therefore, the
only evidence before this Court is that
the Cardiology Defendants were not
making clinical decisions as to
Mendoza s care; instead, they were
simply consulting at the behest of other
physicians. Under the standard of care
dictated by Plaintiff s own expert,
Plaintiff cannot sustain the current
action
against
the
Cardiology
Defendants. To paraphrase the words
of their own expert, Plaintiff has offered
no evidence that the Cardiology
Defendants did anything wrong. As
such, the Court will grant the Cardiology
Defendants
Motion for Summary
Judgment.
In applying this reasoning, the District Court
inexplicably ignored evidence submitted by
19

Petitioner specifically the reports of Dr. Cumbo, Dr.
Charash and the Affidavit of Dr. Charash. The
Opinion of the Court of Appeals is silent on the
evidence and there is no indication this evidence was
ever reviewed.
Plaintiff argued this evidence
created a genuine issue of material fact. The
District Court never explained why it did not even
consider Petitioner s evidence.
This Court has frequently set forth the
standards for reviewing a motion for summary
judgment. What this Court has not done is use its
supervisory powers to instruct the courts to fully
explain why evidence is accepted or rejected when
considering whether a genuine issue of material fact
is present. Petitioner asks the Court consider this
issue.
If, as some of the Circuits require, the Court
were directed to explain the basis of its
determination, this did not happen here. Based on
the Opinion, Petitioner was deprived of her Seventh
Amendment rights without apparently any of her
evidence being considered. Given the substantial
number of cases decided by summary judgment and
the deprivation of rights emanating as a result,
surely, Petitioner cannot be deprived of such a
fundamental right without a full explanation and
rationale.
Some of the Circuit Courts have considered
this question. Strikingly, the Third Circuit ignored
its own admonitions in affirming the District Court.
20

In Forbes v. Township of Lower Merion, 313 F.3d 144
(3d Cir. 2002), a case involving qualified immunity,
the Third Circuit required district courts "to specify
those material facts that are and are not subject to
genuine dispute and explain their materiality." Id. at
146. The Third Circuit went on at pp. 148-49 to
explain:
In analogous situations where clearer
statements of law or references to the
record are necessary to facilitate
meaningful appellate review, this Court
has announced supervisory rules
regulating
important
procedural
matters. For example, in Vadino v. A.
Valey Engineers, 903 F.2d 253 (3d Cir.
1990), we reviewed a grant of summary
judgment whose reasoning was not
apparent from the record and which did
not provide any indication of the grounds
on which it was based. We noted that a
requirement that District Courts
accompany such orders with some
articulation of their reasoning would not
impose a serious burden, would assist
parties in crafting appellate briefs
responsive to dispositive issues, and
would clearly frame appellate review.
Thus, we exercised our supervisory
power "to require the district courts in
this circuit to accompany grants of
summary judgment hereafter with an
explanation sufficient to permit the
21

parties and this court to understand the
legal premise for the court's order."
Vadino, 903 F.2d at 259.
Other Circuits also required the District Court
provide an explanation when granting summary
judgment.
The First Circuit in Grossman v.
Berman, 241 F.3d 65, 68 (1st Cir. 2001) stated:
In many cases, such statements are
helpful, but not essential. At times,
however, such statements are a
necessary precondition to intelligent
appellate review such an occasion arises
when a trial court grants a motion for
summary
judgment
under
circumstances in which the basis for its
ruling is not easily ascertainable from
the bare record. In that kind of situation,
it is risky business for an appellate court
to guess at what the trial court might
have been thinking, and the better
course is to remand for an elaboration of
the decision.e.g., Francis v. Goodman,81
F.3d 5, 8 (1st Cir. 1996); Myers v. Gulf
Oil Corp.,731 F.2d 281, 283-84 (5th Cir.
1984).
The Second Circuit explained the need to
explain the rational of the lower court in Jones v.
City of N.Y., 603 F. App'x 13, 4 (2d Cir. 2015):

22

Following further development of these
issues, the district court is at liberty to
entertain a new motion for summary
judgment. If the district court reinstates
summary judgment, it should explain
with specificity the basis upon which it
concludes that there is no genuine issue
of material fact as to probable cause.
In United Bank, Corp. v. Buckingham, No.
18-1411, at *18 (4th Cir. Feb. 21, 2019) the Fourth
Circuit in reviewing the grant of a motion of
summary judgment stated:
Rather than conclude that this
competing evidence created a genuine
issue of material fact or explain that
despite this competing evidence, there
was no genuine issue of material fact,
the district court simply held that
$110,000 was a fair equivalent for the
policies.
Thus, the Fourth Circuit also required explanation
for finding as it did without explanation. The Court
remanded the case for an explanation of this
two-word phrase. In this case, which was litigated
over many years, there was no explanation of the
failure to make specific findings. This cannot be
considered appropriate review as required by this
Court before the grant of summary judgment.
The Fifth Circuit in Certain Underwriters at
23

Lloyd's v. Axon Pressure Prods. Inc., 951 F, 3d 248
(5th Cir. 2020) held:
When a district court fails to give
reasons for its decision to exclude
expert testimony, a reviewing court has
no way of knowing whether that
gatekeeping responsibility has been
adequately performed. "A statement of
reasons is one of the handmaidens of
judging." Schwarz v. Folloder 767 F.2d
125, 133 (5th Cir. 1985). "Where a
district court fails to explain its decision
. . . we do not know whether the decision
was within the bounds of its discretion
or was based on an erroneous legal
theory." Id.
In Ga. State Conference of the Naacp v.
Fayette Cnty. Bd. of Comm'rs, 775 F.3d 1336, 1346
(11th Cir. 2015), the Circuit Court remanded the
matter for trial holding:
However, the district court here did not
make a comparable finding nor did the
record clearly afford such a finding.
Although the district court recited the
appropriate standards for summary
judgment in its summary judgment
order, the district court did not plainly
state that no genuine issues of material
fact were present, nor did the court
explain why it rejected the BOC's proffer
24

of disputed material facts in the BOC's
summary judgment response.
Nothing in the record showed one scintilla of
consideration as to the opinions of petitioner s
experts and thus the matter was remanded.
Similarly, there is no indication whatsoever that any
consideration was given to the evidence of Petitioner
in this matter.
These cases show that some of the Circuits
require an explanation for a finding there is no
genuine issue of material fact but what is required
from the lower courts varies from Circuit to Circuit.
This is a matter of the utmost importance as the
right of an aggrieved party to access the courts is a
fundamental right guaranteed by our Constitution.
In reviewing the history of summary judgment
motions, Suja A. Thomas, Reforming the Summary
Judgment Problem: The Consensus Requirement, 86
Fordham L. Rev. 2246 (2018) noted:
Rule 56, adopted along with the other
Federal Rules of Civil Procedure in 1938,
expanded the grant of summary
judgment to defendants and to all types
of cases. The broadening of summary
judgment resulted from a desire to make
the federal courts more efficient. Edson
Sunderland, one of the drafters of Rule
56, discussed the appropriate use of
summary judgment:
[T]here is no
25

reason
for
restricting
[summary
judgment rules] to any type of case as
[t]hey will tend to be used . . . only in
appropriate cases.
However, potential
problems with the broad change in the
scope of summary judgment were
recognized early on. It was argued that
the procedure encouraged courts to
evaluate evidence and dismiss certain
cases that juries should instead decide
based on their assessments of witness
demeanor and credibility.
Since 1938, as discussed above, the use of the
summary judgment motion has grown exponentially.
The statistics make clear that many litigants are
deprived of their day in court. Are we to believe that
in all these cases, there is no genuine issue of fact?
Isn t a litigant entitled to know why she will not see
the inside of a courtroom?
Whether one adheres to the originalist view
of the Constitution or believes it is a living
breathing document, the result should be the same.
Although there have been scholarly articles on
whether an originalist would find the summary
judgment process unconstitutional1, this is not
the issue presented by this petition. Petitioner
does not ask that the Summary Judgment
process be declared unconstitutional.
Rather,
Petitioner asks this Honorable Court recognize that
1

See e.g. Brian T. Fitzpatrick, Originalism and Summary
Judgment, 71 Ohio State Law Journal. 919 (2010).

26

strict procedural safeguards, which are not now
enshrined in the summary judgment process, must
be followed.
The burden in a summary judgment motion is
well established. As set forth in Anderson, 477 U.S.
at 255.
“In considering a motion for summary
judgment, a district court may not make
credibility determinations or engage in
any weighing of the evidence; instead,
the non-moving party's evidence ‘is to be
believed and all justifiable inferences
are to be drawn in his favor.’”
Given this instruction, how can a decision not
explain why the evidence was not believed and all
justifiable inferences were not drawn in favor of
Petitioner, the non-moving party?
The underpinning of our moral imperative
that forms the basis of all legal jurisprudence teaches
that a sin of commission or a sin of omission is a sin
nevertheless. Here, the “sin” is the failure to
explain why evidence which Petitioner asserts
creates a genuine issue of material fact is a failure to
adhere to the long settled requirements for the entry
of summary judgment.
A judge, with the single stroke of a pen or
keyboard can reduce a fundamental right to
a mere suggestion without any guidance from this
27

Court requiring a full explanation of the reasons a
citizen is deprived of their constitutional right to a
jury of their peers. This Court should take this
opportunity to finally make clear that not only must
the Court consider all evidence but if it does not
believe or consider the evidence and cannot draw
justifiable inferences in favor of the non-moving
party, it must explain its reasoning. The Seventh
Amendment right to trial by jury demand no less.

28

